No. 19-264
________
IN THE SUPREME COURT OF THE UNITED STATES
_________
BRANDON KELLY,
Superintendent,
Oregon State Penitentiary,
Petitioner,
v.
LYDELL MARCUS WHITE,
Respondent

Proof of Service

I, Ryan T. O’Connor, do swear or declare that on this date, November
18, 2019, as required by Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
BRIEF IN OPPOSITION TO PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of
them and with ﬁrst-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
BENJAMIN GUTMAN
Solicitor General
Oregon Department of Justice
1162 Court St. NE
Salem, OR 97301

1

I declare under penalty of perjury that the foregoing is true and
correct.
Executed on November 18, 2019.
s/ Ryan T. O’Connor
_________________
Ryan T. O’Connor
1500 SW First Ave., Suite 1090
Portland, OR 97201

2

